DOE/IG-0443




         AUDIT
        REPORT

                                              THE
                                  U.S. DEPARTMENT OF ENERGY'S
                                FUNDS DISTRIBUTION AND CONTROL
                                 SYSTEM AT THE FEDERAL ENERGY
                                       TECHNOLOGY CENTER




                                               APRIL 1999




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                                April 5, 1999


MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman (Signed)
                       Inspector General

SUBJECT:               INFORMATION: Report on "Audit of the U.S. Department of Energy’s Funds
                       Distribution and Control System at the Federal Energy Technology Center"

BACKGROUND

In Fiscal Year 1998, the Federal Energy Technology Center (FETC) was responsible for managing about $723
million in budgetary resources. The objective of this audit was to determine if FETC had a funds distribution
and control system to ensure appropriated funds were managed in accordance with congressional intent and
applicable policies and procedures.


RESULTS OF AUDIT

Improvements are needed in FETC's administration of budgetary and accounting transactions. FETC did not
have a comprehensive system to allocate indirect costs to funding programs and work-for-others projects. In
addition, FETC did not completely adhere to Headquarters Clean Coal budget direction. The Office of
Inspector General (OIG) reached its conclusions despite a scope impairment. Written documentation was not
always available, and the audit team did not have ready access to key personnel who could explain certain
transactions and management practices and procedures.

In order to strengthen the FETC financial management system, the OIG recommended (1) the development of
policies, procedures, and practices to accurately collect and allocate indirect costs and (2) improvements in
internal control procedures. The OIG also recommended that the Chief Financial Officer conduct a detailed
"for cause" review of the financial management practices at FETC and work with the Office of Field
Management to develop a schedule for reviewing the financial management systems of all Departmental
elements.


MANAGEMENT REACTION

The Chief Financial Officer and FETC's management concurred with the audit recommendations. As a result of
the draft report, the Chief Financial Officer initiated a one week review of FETC's accounting and budgeting
practices and agreed to conduct a more indepth review once FETC also had an appropriate amount of time to
implement the report's recommendations. FETC management has developed an action plan to correct OIG
noted deficiencies and has informed its employees that they need to cooperate with the OIG.

Attachment

cc: Deputy Secretary
    Under Secretary
The U.S. Department Of Energy's Funds Distribution And Control
System At The Federal Energy Technology Center


TABLE OF
CONTENTS

                   Overview

                   Introduction And Objective .................................................................1

                   Conclusions And Observations ............................................................1


                   FETC Funds Distribution And Control System

                   Details Of Finding ..............................................................................3

                   Recommendations And Comments ......................................................9


                   Appendices

                   1. Scope And Methodology.............................................................11

                   2. CFO and FETC Memorandums Regarding Draft Report..............14

                   3. FETC Director's Memorandum Regarding Cooperation With
                      External Auditors ........................................................................17
Overview

INTRODUCTION AND   In December 1996, two of the U.S. Department of Energy's
OBJECTIVE          (Department) research, development, and demonstration centers, the
                   Morgantown Energy Technology Center in Morgantown, West Virginia,
                   and the Pittsburgh Energy Technology Center in Pittsburgh,
                   Pennsylvania, were consolidated into the Federal Energy Technology
                   Center (FETC). The merger was accomplished to make Departmental
                   operations work better and cost less. The mission of the newly created
                   FETC organization was to solve national energy and environmental
                   problems. In Fiscal Year 1998, FETC received about $722.9 million in
                   budgetary funds from 14 different appropriation accounts.

                   FETC manages the Department's Fossil Energy research and
                   development programs for coal and natural gas-based energy supply, as
                   well as programs to produce technologies for environmental clean-up. It
                   also conducts an in-house research program to support external projects.
                   As of September 1998, FETC employed approximately 550 Federal and
                   about 600 support contractor employees.

                   FETC reports to the Assistant Secretary for Fossil Energy.
                   Management onsite consists of the Executive Board, which includes the
                   FETC Director, Deputy Director, and seven Associate Directors. The
                   Associate Directors manage FETC's seven operating divisions: Fuels &
                   Specialty Markets, Power Systems, Environmental Management, Project
                   Management, Science and Technology, Program Support and Site
                   Operations, and Systems and Environmental Analysis. Using
                   appropriations from Fossil Energy, Clean Coal, Environmental
                   Management, and work-for-others, these divisions are responsible for
                   achieving the FETC mission.

                   The objective of this audit was to determine if FETC had a funds
                   distribution and control system to ensure appropriated funds were
                   managed in accordance with congressional intent and applicable policies
                   and procedures.


CONCLUSIONS AND    Improvements were needed in FETC's funds distribution and control
OBSERVATIONS       system. That system allowed (1) inappropriate cost allocations and (2)
                   budgetary inconsistencies, which could result in the misuse of
                   appropriated funds. For example, FETC did not allocate indirect costs
                   to work-for-others or charge all appropriation accounts equitably. With
                   regard to budgetary inconsistencies, funding authority was created over
                   and above what was allocated to FETC for program direction. In


Page 1                                                     Introduction and Objective/
                                                        Conclusions and Observations
         addition, FETC management did not follow budget guidance
         promulgated by both Headquarters and FETC Clean Coal Technology
         Demonstration Program (Clean Coal) officials.

         The cost allocation and budget problems occurred because FETC did
         not have policies and procedures in place to allocate indirect costs.
         Also, FETC officials did not sufficiently emphasize sound financial
         management practices and internal controls. As a result, FETC could
         not demonstrate the accuracy of its cost allocation system or that
         appropriated funds were being spent in accordance with the controls
         established by the Department and the intent of the Congress.

         The Office of Inspector General (OIG) reached its conclusions despite
         a scope limitation. FETC personnel did not always make written
         evidence and documentation available or easily accessible to the audit
         staff. Similarly, requests for documentation essential to the audit were
         not forthcoming or were unreasonably delayed. In addition, when
         documents were provided, they did not contain the level of detail
         necessary to verify the accuracy, reliability, and completeness of
         financial transactions. This scope limitation is discussed more fully on
         Pages 11 and 12 of the report.

         Management agreed with the audit recommendations and stated that
         numerous corrective actions had already been taken but took issue with
         certain facts and provided additional information that was incorporated
         into the report where appropriate. As a result of the draft report, the
         Chief Financial Officer initiated a review and discussions with FETC
         officials regarding their management controls and response to the
         finding and recommendations. FETC officials reevaluated their
         management controls and provided an action plan to the Acting
         Assistant Secretary for Fossil Energy. The Director also issued a
         memorandum that stated that all FETC employees were expected to
         cooperate fully in any external survey, audit, or investigation.

         The issues discussed in this report should be considered by the
         Department when preparing the yearend assurance memorandum on
         internal controls.



                                               ______(Signed)_________
                                               Office of Inspector General


Page 2                                         Conclusions and Observations
FETC Funds Distribution And Control System

                    FETC's funds distribution and control system had significant weaknesses
                    in its cost allocation procedures and financial management system.
                    FETC did not allocate indirect costs equitably to all of its funding
                    programs or to work-for-others projects. Funding authority also was
                    created over and above what was allocated to FETC for program
                    direction, and FETC management did not follow Headquarters guidance
                    relating to the Clean Coal program.


Cost Accounting     Indirect costs were not fully allocated to FETC's benefiting programs
Issues              and work-for-others projects. The appropriate allocation of the full cost
                    of operations is essential if the Department's executives and the
                    Congress are to have reliable and relevant data. The allocation of
                    indirect costs also ensures consistency between costs reported in
                    financial reports and costs provided to financial managers. Indirect costs
                    generally include all costs incurred for centralized operations office and
                    general operating costs essential to maintaining a functioning operations
                    office or site. These costs should be allocated to all benefiting
                    programs. The following discussions of (1) benefiting program
                    allocation and (2) work for others illustrate the inappropriate cost
                    allocation processes disclosed at FETC.

                                        Benefiting Program Allocation

                    Contrary to applicable Departmental guidelines, FETC generally did not
                    allocate site support costs to its benefiting programs. This was
                    confirmed by a study performed by FETC and testimonial statements
                    made by management officials as part of this audit.

                    In Fiscal Year 1998, FETC did charge site support costs to one of its
                    funding programs--Clean Coal. This allocation, however, appeared to
                    be arbitrary and was not properly supported with adequate
                    documentation. Specifically, FETC charged the Clean Coal program
                    $3.8 million. The FETC Chief Financial Officer stated that this was
                    done because $3.8 million was the only amount available in the Clean
                    Coal program direction account after deducting for direct salaries and
                    other support costs. Similar charges were not allocated to the
                    Environmental Management program.

                    Inquiries were made regarding the basis for the $3.8 million allocation,
                    but FETC was not able to provide documentary support for this
                    transaction. An official indicated that it was "understood" that the Clean


Page 3                                                                   Details Of Finding
         Coal program would be charged a portion of the site's institutional costs.
         Another official stated that "using Clean Coal money for Fossil Energy
         was not an issue" because "all of the money was under the same
         Assistant Secretary." Federal Accounting Standards require the
         establishment of a systematic process for allocating direct and indirect
         costs. Taking "what's left" is not an appropriate method for allocating
         costs to the funding program.

         We also noticed that FETC's institutional budget for Fiscal Year 1997
         required the Environmental Management (EM) program to pay
         approximately $2 million for its share of site support costs. However, in
         FY 1998, EM was not charged for these costs. Fossil Energy (FE) was
         of the opinion that an appropriation committee report permitted FETC
         to use FE program direction funds to support other DOE activities. Our
         review of the report language indicated that it was not clear, and FE's
         interpretation was not in keeping with traditional cost accounting
         methodologies.

                                    Work For Others

         FETC, in addition, did not follow Departmental policy with respect to
         allocating indirect costs to work for other Federal agencies and non-
         Federal entities. Departmental policy, as stated in DOE Order 481.1,
         Work For Others, and DOE Order 2110.1A, Pricing of Departmental
         Materials and Services, requires that pricing be based on full cost
         recovery. Prices charged to external parties should include all direct and
         allocable costs of producing the material or providing the service.

         FETC's work-for-others projects, at the time of the audit, totaled $272.7
         million. The largest project, a $49.2 million task assignment for the
         General Services Administration (GSA), was for the implementation of
         information technology resources acquisitions. FETC charged GSA 3.5
         percent for indirect expenses. The funds were collected from GSA, but
         these amounts were not applied back to the appropriate funding
         program. Instead, they were made available to other parts of the
         technology center. Thus, part of GSA's funds was used to support other
         programs unrelated to the GSA effort.

         The audit team was informed that the remaining FETC work-for-others
         projects (totaling $223.5 million) were not charged any amount for
         indirect costs. A detailed review of four work-for-others projects
         confirmed this assertion. Because indirect costs were not applied to


Page 4                                                        Details Of Finding
                  these projects, the Department was inappropriately subsidizing the
                  operations of other Federal agencies and the private sector.


Errors And        The FETC Financial Information System (FIS) contained various coding
Anomalies         errors and anomalies. DOE Order 534.1, Accounting, and DOE M
                  534.1-1, Accounting Handbook, require that Departmental elements
                  establish accounting systems that accurately record and report financial
                  information relating to cash, liabilities, reimbursable work, collections,
                  and expenses. Departmental elements must also ensure that their
                  records contain sufficient details to account for all DOE funds, assets,
                  liabilities, and costs.

                  A July 1998 FIS report showed 28 negative obligations totaling to
                  $4,563,513 and 13 negative payment transactions totaling to
                  $4,215,077. The audit team, in its initial discussions with FETC
                  personnel and in its review of the Department's Accounting Handbook,
                  could find no explanation or support for these negative balances. In a
                  subsequent discussion, a FETC budgeting and financial management
                  official indicated that several of the balances were coding errors.
                  However, specific documentation supporting the initial transactions was
                  not available for audit examination.


Budgetary         FETC also did not establish proper controls over budgetary authority.
Inconsistencies   Obligational and funding authority was created over and above what was
                  allocated to FETC for program direction, and FETC did not follow
                  Headquarters budget guidance.

                                          Obligational Authority

                  FETC's program direction allocation was augmented by the use of a
                  suspense account. DOE Order 135.1, Budget Execution - Funds
                  Distribution and Control, and the related DOE M 135.1-1, Budget
                  Execution Manual, provide that funds allocated from Headquarters are
                  subject to an obligation control level. The control level represents the
                  upper limit placed on the amount of obligations or expenditures that may
                  be incurred for a specific program, function, or element of expense.

                  In Fiscal Year 1998, Headquarters officials allocated $48.7 million to
                  FETC for program direction. This amount was increased by $4.9
                  million through the use of a suspense account. Use of the suspense
                  account was not readily apparent in the Departmental Integrated


Page 5                                                                 Details Of Finding
                           Standardized Core Accounting System (DISCAS) and would have gone
                           undetected unless an individual had known of its existence. Statements
                           made to the audit team indicated that similar transactions of this type
                           have been made in previous years. As a result of these transactions,
                           FETC inappropriately augmented its program direction account. We
                           could find no rationale to support these actions.

                                                      Budget Guidance

                           FETC, in addition, did not follow budget guidance contained in the
                           Clean Coal Program Implementation Plan (PIP). The PIP is the result of
                           joint planning conducted by FETC and Headquarters executives, and it
                           identifies the program financial transactions that require the obligation of
                           Clean Coal appropriated funds. Increases to the PIP require
                           Headquarters approval.

                           The FY 1998 PIP established FETC Clean Coal program salaries and
                           benefits for 50 Full Time Employees (FTEs) at $4.5 million. Despite
                           this guidance, the FETC Chief Financial Officer and an Executive Board
                           member indicated that the Clean Coal program would be charged an
                           additional $700,000. In a discussion about the increased amount, an
                           Executive Board member stated that 50 FTEs had worked on Clean
                           Coal projects at a cost of $5.2 million. He further stated that the
                           difference between the PIP and FETC salary amounts was due to
                           Headquarters using the wrong numbers in the PIP.

                           The audit team examined salary and benefit charges to the Clean Coal
                           program. Both a Clean Coal official and the audit analysis indicated that
                           only 45 FTEs were actually supporting the Clean Coal program.
                           Documentation supporting the additional $700,000 in payroll charges
                           was not available for audit examination. Further, we could find no
                           indication that Headquarters approved this increase.


Establishment Of A Sound   The cost allocation and budget problems occurred because FETC did
Funds Distribution And     not have policies and procedures in place to allocate indirect or support
Control System             costs. Also, FETC officials did not sufficiently emphasize sound
                           financial management practices and internal controls. For example, the
                           internal control systems did not provide for proper segregation of duties
                           and documentation and review of transactions. In addition, personnel
                           who left the Budget and Financial Management Division had not been
                           replaced, and there had not been a recent external review of FETC that
                           may have detected some of the weaknesses in the funds distribution and
                           control system.

Page 6                                                                           Details Of Finding
                                    Cost Distribution

         Following the merger, FETC did not develop written policies and
         procedures for allocating costs. Rather than following the normal
         process for allocating indirect costs to funding programs, an individual
         in the Budget and Financial Management Division used a database to
         reallocate actual costs based on initial budget estimates rather than
         expenses incurred. The purpose of this process was not documented;
         however, by adjusting costs to fit to a predetermined formula, FETC
         was no longer associating actual costs with work performed.

         FETC attempted to rectify the situation in 1997 for work-for-others
         projects. A Direct/Indirect Cost Team was formed. Its objective was to
         determine a methodology to develop indirect cost rates for services
         offered to FETC's outside customers. The team produced a report that
         included many useful recommendations; however, there was no
         indication that FETC was using the methodology of the report to assign
         indirect charges to work-for-others projects.

                                     Internal Control

         There were also weaknesses in internal control over financial
         transactions. For example, one person at FETC had sole responsibility
         for entering the institutional budget, obligating and costing funds,
         adjusting cost amounts, and creating yearend adjustments to uncosted
         balances on support service contract amounts. The OIG was informed
         that this individual has since left the organization and that others are
         learning to perform these functions. No individual, however, should
         have sole responsibility over all these types of transactions.

         In another example, FETC's budgeting and financial management
         personnel were not regularly reviewing transaction and exception
         reports. A DISCAS report provided listings of invalid user entries such
         as "over advice at funds control level" or "over obligation at the B&R
         summary." But this report was not used at FETC even though the
         Department's Deputy Controller had emphasized that such error reports
         should be reviewed on a regular basis.

         A Fossil Energy management official informed us that, as a result of the
         merger, FETC had lost many knowledgeable budgeting and financial
         management personnel. Key employees either retired or were
         transferred out of the Budget and Financial Management Division and,
         at the time of the audit, replacements had not been found.


Page 7                                                        Details Of Finding
                            A 1998 FETC summary management review noted the loss of key
                            personnel and the fact that there had been no formal reviews of the
                            financial system. The review indicated that little progress was made in
                            the development of financial policies and procedures, and that
                            reallocation of duties had created turmoil in the Budget and Financial
                            Management Division. Also, periodic backlogs in processing
                            information occurred, and without additional staffing support, the
                            backlogs increased risk. Despite this assessment, FETC's yearend
                            memorandum to the Acting Assistant Secretary for Fossil Energy stated
                            that management controls were working effectively and that the financial
                            management system had been evaluated and conformed to applicable
                            standards.

                                           Oversight Of FETC Financial Activities

                            The Headquarters Offices of Chief Financial Officer and Fossil Energy
                            were not aware of the internal control weaknesses at FETC because of
                            the positive assertions made by senior officials and the fact that the
                            Department's Chief Financial Officer had not reviewed FETC financial
                            management systems since 1991. Both the Pittsburgh and Morgantown
                            Energy Technology Centers were subject to a 1991 compliance review
                            by the Headquarters Chief Financial Officer. Since 1995, the Chief
                            Financial Officer has utilized the Department's Business Management
                            Oversight Process (BMOP) for Headquarters reviews over field
                            activities. The BMOP reviews have focused primarily on larger
                            Departmental field activities. At the time of the audit, FETC, because of
                            the size of its operations, had not been scheduled for a review. We
                            noted that there were other similarly sized organizations within the
                            Department that had not been subjected to business oversight reviews.


Importance Of An Internal   The audit findings led us to conclude that FETC had not developed or
Control System              implemented a comprehensive system of financial controls. FETC had
                            not developed adequate financial management policies and procedures
                            or ensured that appropriate documentation was available to support all
                            transactions. FETC also had not developed a cost distribution system
                            that consistently and equitably applied indirect costs to benefiting
                            programs and work-for-others projects. In addition, despite
                            requirements for appropriate segregation of duties, several transactions
                            appeared to have been authorized, processed, recorded, and reviewed by
                            one individual. Taken together, these weaknesses prevented FETC from
                            assuring its customers and stakeholders that its financial reports, use of
                            funds, and billing of customers were accurate and supportable.

Page 8                                                                           Details Of Finding
RECOMMENDATIONS   We recommend the Director, Federal Energy Technology Center:

                  1)   Develop, document, and implement policies, procedures, and
                       practices for collecting and allocating indirect costs to FETC
                       funding programs and work-for-others projects.

                  2)   Develop and implement a system of internal controls over financial
                       management that includes:
                       a) documentation of control systems and all transactions that are
                           readily available for examination;
                       b) separation of responsibilities in authorizing, processing,
                           recording, and reviewing transactions;
                       c) continuous supervision to ensure that the internal control
                           objectives are achieved; and
                       d) necessary staff resources to accomplish assigned duties.

                  We recommend that the Chief Financial Officer:

                  1)   Conduct a "for cause" review to ensure that FETC is performing
                       financial management according to established Departmental
                       policies and procedures; and

                  2)   Work with the Office of Field Management to develop a schedule
                       to review, based on risk, the financial operations of field and
                       Headquarters' reporting units.


MANAGEMENT        FETC concurred with the recommendations and indicated that
REACTION          individuals within its Budget and Financial Management Division are
                  working to institute improvements and a financial reporting structure
                  relating to internal controls, recovery of indirect costs, the development
                  of written budget and accounting desk procedures, and the evaluation of
                  training and workload distribution. FETC will coordinate these policies
                  with the Headquarters' CFO Office of Policy to ensure full compliance
                  with Departmental policy. FETC intends to complete its action plan by
                  October 1999. In addition, the Director of FETC issued a memorandum
                  for all FETC employees indicating that they were expected to fully
                  cooperate in any external survey, audit, or investigation. (See Appendix
                  3.)

                  The Chief Financial Officer agreed with the report's recommendations
                  and approved and coordinated the FETC action plan and response to the


Page 9                                              Recommendations And Comments
           draft report. With regard to the recommendations, the Office of Chief
           Financial Officer plans to perform a follow-up review of FETC financial
           management activities after management has had an appropriate
           amount of time to implement the report's recommendations. It also
           plans to pursue with the Office of Field Management the need to
           perform periodic cyclical reviews of financial management activities at
           the Department's other Field sites.


AUDITOR    Management comments are responsive to the recommendations.
COMMENTS




Page 10                                    Recommendations And Comments
Appendix 1

SCOPE        The audit was performed from May 11, 1998, to November 10, 1998, at
             the Federal Energy Technology Center (FETC) offices in Pittsburgh,
             Pennsylvania, and Morgantown, West Virginia, and at Fossil Energy,
             Clean Coal Technology and the Chief Financial Officer's offices in
             Washington, DC and Germantown, Maryland. The review included an
             examination of Fiscal Year 1998 appropriated funds.

             In conducting the audit, we considered the audit scope impaired. The
             audit team was not provided with complete documentation for many
             transactions and did not have full access to key personnel during the
             review. Responses to information requests were delayed, and FETC
             officials chose not to provide the Office of Inspector General with
             requested information because they "could not devote critical resources
             to researching" information requests. In addition, restrictions were
             placed on audit interviews. For example, documentary support
             requested in July of 1998 was not provided, and in September 1998,
             FETC officials indicated that the information requested in July would
             not be available due to yearend closeout activities. Generally, when
             documentation was provided, it did not contain the level of detail
             necessary to support the statements made by budget and accounting
             personnel.

             FETC procedures also required individuals contacted by the OIG to
             submit a "contact report," to be forwarded and distributed to
             management in the FETC organization. The "contact report" practices
             at the FETC may have inhibited knowledgeable employees from
             speaking freely or providing candid views on the issues under audit. On
             March 22, 1999, FETC management eliminated the contact report
             requirement.

             On several occasions the audit team met with senior FETC officials to
             discuss the tentative results of audit. During these discussions, FETC
             officials indicated that they were in the process of initiating certain
             corrective actions, and at the final meeting, offered to provide a
             corrective action plan addressing the issues noted in this report. The
             Office of Inspector General, on October 15, 1998, formally provided
             FETC the opportunity to have any corrective actions referenced in our
             report. However, FETC decided it would be preferable to formulate a
             corrective action plan following receipt of the draft report.

             In response to the draft, FETC in coordination with the Office of Chief
             Financial Officer, provided additional information that was reflected in
             the report as appropriate.

Page 11                                                    Scope And Methodology
METHODOLOGY   To achieve the audit's objective, Federal financial accounting standards
              and related Departmental guidance were reviewed to determine the
              requirements for funds distribution and control. DOE Orders related to
              budget execution and accounting and related manuals were also
              examined to determine the systems, policies, and requirements for the
              execution and control of the Department's budgetary and accounting
              processes. In addition, U.S. General Accounting Office Standards for
              Internal Controls in the Federal Government were reviewed to establish
              the requirements necessary for systems of internal control directed by
              the Federal Managers' Financial Integrity Act of 1982. Further, a variety
              of internal FETC and Clean Coal program reports were reviewed to gain
              insight into the methodology for determining indirect rates for work-for-
              others projects and the Fiscal Year 1998 budget amounts. Finally, prior
              audit reports and responses to findings were assessed to determine their
              applicability to FETC and the operation of the Departmental Integrated
              Standardized Core Accounting System (DISCAS).

              Discussions were also held with FETC and Headquarters officials.
              Meetings were conducted with the Fossil Energy and Clean Coal
              Technology program budget and financial management officials to
              obtain information with regards to appropriation language and budgeting
              processes.

              The audit examined various budgetary and accounting transactions.
              FETC allotment postings totaling to $722.9 million were matched
              against allotments posted on DISCAS for the month ending June 1998.
              FETC employee Budget and Reporting (B&R) codes for pay periods
              ending May 9 and May 23, 1998, were compared against Fiscal Year
              1998 codes assigned at the beginning of the year. Four work-for-others
              agreements were also reviewed to determine whether indirect charges
              had been allocated to these projects and FETC accounts.

              Except for the scope impairment previously noted, the audit was
              conducted in accordance with generally accepted Government auditing
              standards for financial related audits which included tests of internal
              controls and compliance with laws and regulations to the extent
              necessary to satisfy the objectives of the audit. Internal controls were
              reviewed with regards to controls over funds distribution and control.
              Because the review was limited, it would not have disclosed all internal
              control deficiencies that may have existed. Computer-processed data
              was used only as necessary to review internal controls over budgetary
              and financial transactions.


Page 12                                                    Scope And Methodology
          An exit conference was held with representatives from the Offices of
          Chief Financial Officer, Fossil Energy, and the Federal Energy
          Technology Center on March 22, 1999.




Page 13                                               Scope And Methodology
Appendix 2




Page 14         CFO Memorandum
             Regarding Draft Report
Page 15     FETC Memorandum
          Regarding Draft Report
Page 16      CFO Memorandum
          Regarding Draft Report
Appendix 3




Page 17      FETC Director's Memorandum Regarding
                 Cooperation With External Auditors
                                                                        IG Report No. DOE/IG-0443

                                CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and,
therefore, ask that you consider sharing your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of
   the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in
   this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                  Office of Inspector General (IG-1)
                                        Department of Energy
                                       Washington, DC 20585

                                     ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
     friendly and cost effective as possible. Therefore, this report will be available
         electronically through the Internet at the following alternative address:


       U.S. Department of Energy Management and Administration Home Page
                             http://www.hr.doe.gov/ig
                                        or
                              http://www.ma.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.


                          This report can be obtained from the
                              U.S. Department of Energy
                     Office of Scientific and Technical Information
                                      P.O. Box 62
                             Oak Ridge, Tennessee 37831
